          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




           Opportunities Exist to Strengthen
           the Federal Acquisition Service’s
           Contracting Officer’s Representative
           Workforce
           Report Number A130007/Q/A/P14006
           September 29, 2014




A130007/Q/A/P14006
                     Office of Audits
                     Office of Inspector General
                     U.S. General Services Administration


                                      REPORT ABSTRACT
OBJECTIVES                    Opportunities Exist to Strengthen the Federal Acquisition Service’s
 To determine if: (1) FAS     Contracting Officer’s Representative Workforce
 Contracting Officer’s        Report Number A130007/Q/A/P14006
 Representatives (CORs)       September 29, 2014
 are certified, designated,
 and developed in             WHAT WE FOUND
 accordance with the          We identified the following during our audit:
 Office of Federal            Finding 1 – FAS is not consistently implementing COR certification program
 Procurement Policy’s         guidance and stated best practices, possibly affecting COR foundational
 Federal Acquisition          knowledge.
 Certification for            Finding 2 – FAS CORs are not being designated in accordance with COR
 Contracting Officer’s        certification program guidance due to decentralized management and limited
 Representatives              system access.
 program and applicable       Finding 3 – Lack of training alternatives and sufficient oversight result in
 GSA guidance, and (2)        underdeveloped CORs.
 the COR certification        Finding 4 – Inadequate and unreliable FAS COR data hinders consistency
 program is effectively       and transparency.
 managed to ensure            WHAT WE RECOMMEND
 consistency and              Based on our audit findings we recommend that the FAS Commissioner:
 transparency.                   1. Implement a control to ensure that all FAS CORs are accounted for
                                    and registered in FAITAS.
                                 2. Develop guidance to ensure the consistent implementation of the
                                    Federal    Acquisition    Certification for     Contracting     Officer’s
                                    Representatives program as it relates to certifications, to include how
                                    regional CORs who report nationally should register in FAITAS.
                                 3. Improve quality, use, and tracking of COR designation letters.
                                 4. Develop a method to quantify and monitor COR workload.
                                 5. Establish: (1) guidelines for evaluating training courses for credit
                                    towards CLP achievement requests, and (2) controls to ensure CORs
Center for Contract                 complete FAS-required training courses.
Audits (JA-A)                    6. Determine if restructuring the Central Office bureau would improve
1800 F Street, NW                   transparency and management of the FAS COR workforce.
Room 5215                     MANAGEMENT COMMENTS
Washington, DC 20405          The Commissioner of the Federal Acquisition Service acknowledged receipt
(202) 273-7370                of the draft report and plans to implement ways to strengthen the FAS COR
                              workforce. Management’s written comments to the draft report are included
                              in their entirety as Appendix B.



     A130007/Q/A/P14006                          i
                  Office of Audits
                  Office of Inspector General
                  U.S. General Services Administration

 DATE:            September 29, 2014
 TO:              Thomas A. Sharpe Jr.
                  Commissioner, Federal Acquisition Service (Q)
                  signed


 FROM:            Michelle Westrup
                  Audit Manager, Center for Contract Audits (JA-A)
 SUBJECT:         Opportunities Exist to Strengthen the Federal Acquisition Service’s
                  Contracting Officer’s Representative Workforce
                  Report Number A130007/Q/A/P14006

This report presents the results of our audit of the qualifications of FAS contracting
officer’s representatives. Our findings and recommendations are summarized in the
Report Abstract. Instructions regarding the audit resolution process can be found in the
email that transmitted this report.

Your written comments to the draft report are included in Appendix B of this report.

If you have any questions regarding this report, please contact me or any member of
the audit team at the following:

    Michelle Westrup       Audit Manager           michelle.westrup@gsaig.gov (816) 926-8605
    Susan Myers            Auditor-In-Charge       susan.myers@gsaig.gov      (202) 273-7376
    James Gable            Auditor                 james.gable@gsaig.gov      (202) 273-7381

On behalf of the audit team, I would like to thank you and your staff for your assistance
during this audit.




A130007/Q/A/P14006                             i
Table of Contents
Introduction .............................................................................................................. 1

Results
Finding 1 – FAS is not consistently implementing COR certification program
            guidance and stated best practices, possibly affecting COR
            foundational knowledge ........................................................................... 2
Finding 2 – FAS CORs are not being designated in accordance with COR
            certification program guidance due to decentralized management and
            limited system access.............................................................................. 3
Finding 3 – Lack of training alternatives and sufficient oversight result in
            underdeveloped CORs ............................................................................ 4
Finding 4 – Inadequate and unreliable FAS COR data hinders consistency and
            transparency ............................................................................................ 6
Recommendations. .................................................................................................... 7
Management Comments ............................................................................................ 7


Conclusion................................................................................................................ 8

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – Management Comments .............................................................. B-1
Appendix C – Report Distribution ....................................................................... C-1




A130007/Q/A/P14006                                         ii
Introduction
Contracting Officer’s Representatives (CORs) play a critical role in ensuring that the
Government achieves the best value when acquiring goods and services. CORs
ensure that contractors meet their contract commitments and are often first to recognize
when a contractor or program is underperforming. To emphasize the importance of
COR training and development governmentwide, the Office of Federal Procurement
Policy established the Federal Acquisition Certification for Contracting Officer’s
Representatives program (COR certification program) that focuses on fundamental
COR responsibilities. It is a risk-based certification program that establishes general
COR training, experience, and development requirements and best practices for CORs.
The COR certification program separates CORs into three categories: (1) Level I CORs
serve on low-risk contract vehicles and are not required to have prior COR experience;
(2) Level II CORs perform general project management activities and are required to
have at least 1 year of prior COR experience; and (3) Level III CORs are assigned to
significant program management activities and are required to have at least 2 years of
prior COR experience. In addition to initial certification requirements, the COR
certification program also requires CORs obtain recertification every 2 years through
continuous learning points (CLPs). Level I CORs are required to obtain eight CLPs and
Level II/III CORs are required to obtain 40 CLPs.

To improve COR management and oversight, the COR certification program requires all
CORs to register in the Federal Acquisition Institute Tracking Application System
(FAITAS). 1 When registering in FAITAS, CORs must self-select their FAITAS bureau.
Within FAS, there are 12 FAITAS bureaus; one for each region and one for FAS Central
Office. Each bureau has a Bureau Career Manager (bureau manager) who: (1) serves
as the final FAS reviewer for COR certification requests in FAITAS, (2) is responsible for
verifying the accuracy and completeness of certification requests, and (3) maintains
COR certification records.

Objectives

Our audit objectives are to determine if: (1) FAS CORs are certified, designated, and
developed in accordance with the Office of Federal Procurement Policy’s Federal
Acquisition Certification for Contracting Officer’s Representatives program and
applicable GSA guidance, and (2) the COR certification program is effectively managed
to ensure consistency and transparency.

The results of our audit are limited to information contained in FAITAS and/or FAS-
provided data. Therefore, any CORs not registered in FAITAS and not identified in FAS
data were not included in our audit testing.

See Appendix A - Purpose, Scope, and Methodology for additional details.

1
 FAITAS is the official system of record for certification and training of all GSA acquisition workforce
members (including CORs).


A130007/Q/A/P14006                             1
Results
Finding 1 – FAS is not consistently implementing COR certification program
guidance and stated best practices, possibly affecting COR foundational
knowledge.

When COR certification program guidance and best practices are not consistently
implemented by FAS bureau managers, certified CORs are at risk of not possessing the
appropriate skills, abilities, and competencies necessary to perform their designated
duties. FAS bureau managers are responsible for reviewing COR certification requests
in FAITAS and serve as the final FAS-approver for those requests. Although GSA’s
Office of Governmentwide Policy has final approval of FAS COR certification requests,
bureau managers are in the best position to identify certification issues due to their
familiarity with operations. COR certification program guidance is inconsistently applied
during the certification process because the 12 bureau managers operate
independently. Additionally, the lack of formal guidance provided by FAS and the Office
of Governmentwide Policy contributes to confusion regarding requirements and best
practices. This may result in underqualified CORs, which could affect their ability to
effectively manage complex, high value contracts and ensure that contractors meet their
contract commitments.

We analyzed the 52 COR certification requests approved in FAITAS from April 15 to
July 15, 2013. Of those 52 CORs, 38 obtained a Level I or Level II certificate without
any prior COR experience. 2 Of these 38 CORs, 31 did not receive their initial COR
training in a classroom setting as recommended by the COR certification program
guidance. In most cases, CORs took online training courses to satisfy their initial COR
certification requirements. Furthermore, four of these CORs did not take any courses
(online or in person) covering COR roles and responsibilities as required by the COR
certification program guidance. Generally, these CORs took training courses related to
acquisition workforce duties (e.g., green purchasing, contract pricing, managing
projects, risk assessment); however, these courses do not address fundamental COR
responsibilities. Since these individuals have no prior experience and may be assigned
to complex product and service contracts, it is necessary that they obtain a solid
foundation to build their COR knowledge.

The COR certification program guidance states that all CORs would benefit from ethics
training. For 22 of the 52 CORs, there was no evidence of ethics training in their
FAITAS profile. Furthermore, there is a clear distinction between the FAS Central
Office bureau and regional bureaus. Over 95 percent of the CORs without evidence of
ethics training in FAITAS were attributed to regional bureaus. The COR certification
program guidance and GSA Acquisition Letter MV-06-06 Supplement 4 require CORs to
ensure their training data is properly entered into FAITAS. CORs and bureau managers
are also responsible for maintaining certification documentation for quality assurance

2
  Per the COR certification program guidance, “Levels I and II are not incremental. If a COR meets the
requirements of Level II certification, (s)he can be certified at Level II without prior Level I certification.”


A130007/Q/A/P14006                                2
purposes. Despite these controls, documentation of ethics training was lacking in
FAITAS for these CORs.

The COR certification program requires Level II and Level III CORs submit experience
documentation during certification. Level II CORs are required to have at least 1 year
COR experience and Level III CORs are required to have at least 2 years experience. 3
Twenty-six of the fifty-two CORs obtained a Level II or Level III certificate; however five
of these CORs submitted documentation that did not fully satisfy Level II or Level III
COR experience requirements. The documentation detailed previous tasks performed
and past experiences; however, it did not include the necessary timeframes to
determine if experience requirements were met. Two CORs also submitted COR
designation letters as proof of experience, but without designation start and end dates.
When experience documentation does not contain timeframe details, it is not possible to
determine if CORs met COR certification program experience requirements.

When approving COR certificates, bureau managers should strive to apply the COR
certification program and GSA guidance consistently across all regions and portfolios.
They should also take into consideration the best practices and recommendations
included in the guidance to strengthen the COR certification program. Consistent
implementation of certification guidance will provide CORs with a strong basis of
knowledge to help GSA achieve best value for customer agencies.

Finding 2 – FAS CORs are not being designated in accordance with COR
certification program guidance due to decentralized management and limited
system access.

The decentralized management of COR workload and limited access to FAITAS
information impacts the CORs’ ability to assist contracting officers in managing their
contracts. Generally, FAS does not track COR workload at the regional/portfolio level
and relies on bureau managers for current COR certification information via FAITAS.
FAITAS is structured in a way that only allows bureau managers and a COR’s direct
supervisor to view information in the system. In many instances, contracting officers
must rely on the bureau manager or the CORs’ supervisor to inform them of any
certification status change (e.g., expired, revoked, current).        This method of
communication and relay of information could negatively affect the contract, the
Government, and the management of FAS’s COR program.

For instance, per COR certification program guidance, if a COR certificate lapses, the
designation letter, which establishes a COR’s authority to administer a contract, shall be
revoked, in writing, by the contracting officer. As noted above, if the bureau manager
does not notify the contracting officer of the change in status, the contracting officer has
no way of knowing they should revoke the designation letter. When COR authority is
not immediately revoked, it raises the probability that the COR will perform unauthorized

3
  CORs applying for Level II or Level III certification can gain COR experience by performing acquisition-
related activities, including, but not limited to performing market research, writing statements of work, and
developing quality assurance surveillance plans.


A130007/Q/A/P14006                               3
tasks such as evaluate contractor claims and proposals that may increase the
Government’s risk for potential claims or other legal implications.

The COR certification program requires the contracting officer designate a COR, in
writing. Likewise, Federal Acquisition Regulation 1.602-2(d) requires CORs be certified
in accordance with the COR certification program and designated in writing. Of the 120
COR designation letters we requested from FAS, they could not provide 19. FAS noted
that these letters could not be located for a variety of reasons (e.g., letters missing,
letters lost in transition to digital files). Furthermore, 15 COR designation letters lacked
contract-specific details, such as the date of designation. 4 Without specific details, such
as the contract number and date of designation, it is not possible to determine what
contracts a COR is responsible for and when authority was designated.

The COR certification program requires all CORs obtain a valid certificate within 6
months of designation. Internal workload reports showed 15 CORs that were assigned
to at least one contract but we found they did not have a COR certificate. In each
instance, we discussed this with FAS officials and they were unable to provide a valid
certificate for the assigned CORs. We also identified nine CORs assigned to at least
one contract that possessed an expired (or revoked) certificate. Further, two CORs
obtained their certification more than 6 months after being designated as the COR to a
contract.

When COR workload and designation letters are not adequately monitored, it is difficult
to determine which CORs are responsible for certain contracts. CORs serve as the
contracting officer’s official representative and are granted specific contractual authority.
Typical COR responsibilities include monitoring contractor costs, evaluating contractor
performance, and inspecting contract services and deliverables. If a COR certificate
expires, is revoked, or not obtained within 6 months of designation, it is necessary for
the bureau manger to know which contract(s) the COR is assigned to in order to notify
the appropriate contracting officer. If the contracting officer is unaware of certificate
status changes, there is a possibility that uncertified CORs will be responsible for
inspection, acceptance, and rejection of contract services.

Finding 3 – Lack of training alternatives and sufficient oversight result in
underdeveloped CORs.

Based on our analysis of CLP achievement requests, FAS CORs are meeting the
number of CLPs as required by the COR certification program; however, we question
the quality of the training received. Many are taking duplicative or non-applicable
training courses and some are earning an implausible number of CLPs in a time period.
This may be happening because bureau managers are not identifying duplicative and
non-applicable training courses as recertification issues during their review of CLP
achievement requests. 5     Another cause may be a lack of suggested training

4
  Eleven of the fifteen were from the same portfolio which only issues generic COR designation letters.
5
  Once CORs have met the CLP requirements for their certification level, they submit CLP achievement
requests for bureau manager review within FAITAS.


A130007/Q/A/P14006                            4
alternatives, which GSA informed us would be addressed through an update to General
Services Administration Acquisition Regulation Part 501.

FAITAS reports indicated FAS bureau managers approved 133 CLP achievement
requests in the 15 months prior to September 19, 2013. We analyzed a judgmental
sample of 46 CLP achievement requests from this time period. While all 46 CORs met
the required number of CLPs, for 15 CORs the hours were obtained using duplicative,
non-applicable, and/or unsupported courses. For example, one COR obtained 44 CLPs
but took one of the training courses twice. 6 Removing the duplicative CLPs results in
the COR not meeting the recertification requirements. Other CORs took training
courses relevant to the employees’ work but unrelated to COR responsibilities or
competencies (e.g., Google Analytics and AdWords). In other cases, CLPs were
unsupported as CORs did not provide documentation to confirm completion or the
number of CLPs were overstated based on the documentation provided. Of the
remaining 31 CORs, 26 obtained all CLPs by one method. To ensure that CORs are
well-rounded, the COR certification program encourages CORs to achieve CLPs by a
variety of methods; including, but not limited to training, attending seminars, and
mentoring.

In addition, we found six CORs earned an implausible number of CLPs within a given
time period (e.g., one COR obtained 32 CLPs on the same day). The Federal
Acquisition Institute’s guidance on CLPs generally provides for one CLP per hour of
instruction or activity. Thus, although there is no regulation prohibiting the achievement
of 32 CLPs in one 24-hour period, we argue that it is unreasonable. FAS explained a
potential cause could be a data input error. If this is the case, bureau managers should
address these errors at the time of CLP achievement approval to ensure information
within FAITAS is accurate.

FAS has identified required training courses to enhance the knowledge of the
acquisition workforce. FAS Instructional Letter (IL) 2012-10 required existing CORs
complete Basic Contracting for GSA Schedules by June 25, 2013, and new CORs
complete it within 1 year from entrance into the acquisition workforce. Similarly, FAS IL
2012-10 Supplement No. 1 required the completion of five courses by November 19,
2013. 7 However, many CORs are not completing FAS required training courses.
Based on our analysis of CLP achievement requests, 18 CORs did not meet the
respective deadlines to satisfy FAS IL 2012-10 and 19 CORs did not complete all of the
courses required by FAS IL 2012-10 Supplement No. 1. 8 FAS informed us that IL 2014-
04, issued on November 15, 2013, supersedes both of the aforementioned letters and
extends the deadline for completion to May 16, 2014. 9 We re-evaluated the 19 CORs

6
  This COR was required to obtain 40 CLPs for recertification.
7
  This IL also required the completion of an additional course for CORs involved in IT acquisitions.
8
  While we analyzed 46 CLP achievement requests, two were for one COR. Thus, the universe for our
analysis of FAS IL 2012-10 is 45. Further, one COR retired before the deadline established by FAS IL
2012-10 Supplement No. 1, resulting in the universe for our analysis of this letter to be 44.
9
  IL 2014-04 supersedes both previous ILs; however, it does not impact the findings under IL 2012-10 as
the required course completion date was June 25, 2013, and IL 2014-04 did not go into effect until
November 15, 2013.


A130007/Q/A/P14006                            5
who had not completed the courses required by IL 2012-10 Supplement No. 1 to
determine if they met the extended May 2014 deadline and identified 12 did not. This
further indicates that FAS does not have adequate controls in place to ensure CORs are
completing required training.

All CORs in our CLP achievement sample obtained the required number of hours;
however, based on our findings, improvements can be made. Additional efforts by FAS
bureau managers could improve the quality of the training CORs receive. Specifically,
bureau managers should ensure that CORs meet the CLP hour requirements without
the use of duplicative, non-applicable, or unsupported courses and that CORs are
completing all FAS-required training. In turn, FAS CORs will more likely possess the
necessary competencies to assist in the administration of FAS contracts and protect
taxpayer dollars.

Finding 4 – Inadequate and unreliable FAS COR data hinders consistency and
transparency.

Unreliable and limited data make it difficult to effectively manage the COR program to
ensure consistency and transparency within FAS. Relevant, reliable, and timely
communication is essential for an organization to manage operations. We found
instances in which program data was incorrect, unavailable, and/or inaccessible, which
compromises management decisions.

FAITAS Data Issues
FAITAS is meant to enhance FAS’s ability to manage the COR workforce and provide
internal controls for the certification and recertification processes. However, FAITAS
user profiles are sometimes created in ways that negate these benefits. We identified
the following data issues:

   •   One instance where two CORs selected one another as supervisor. One of
       these CORs also serves as the supervisor for another COR of a higher grade.
   •   Eight instances in which CORs self-selected the wrong bureau.
   •   CORs who report nationally, but are located in regional offices, inconsistently
       register under either regional or Central Office bureaus.

Additionally, due to the structure of FAS’s bureaus in FAITAS, managers do not have
complete visibility of the COR workforce for their portfolios, as they can only view and
access information for CORs under their direct supervision. Further, all CORs in
Central Office are in a consolidated bureau and the Office of Acquisition Management
performs the bureau manager function (i.e., Central Office Bureau Manager). This
arrangement puts a large oversight burden on the Central Office Bureau Manager;
which, as of July 2013, was responsible for 240 CORs while the next largest bureau
manager had only 42. This disparity between the Central Office and regional bureau
managers should be evaluated to determine how the structure of the Central Office
bureau impacts the success of the COR program.




A130007/Q/A/P14006                     6
COR Workload Data Issues
FAS does not have a reliable method to track COR workload. When we requested
workload information, FAS often provided manually-collected data. We found that the
CORs for 16 contracts were misidentified in internal FAS workload reports. When we
inquired about discrepancies, FAS frequently informed us that the workload data was
wrong. Given this, FAS’s current method of tracking workload is ineffective.

Recommendations

Based on our audit findings we recommend that the FAS Commissioner:

   1. Implement a control to ensure that all FAS CORs are accounted for and
      registered in FAITAS.
   2. Develop guidance to ensure the consistent implementation of the Federal
      Acquisition Certification for Contracting Officer’s Representatives program as it
      relates to certifications, to include how regional CORs who report nationally
      should register in FAITAS.
   3. Improve quality, use, and tracking of COR designation letters.
   4. Develop a method to quantify and monitor COR workload.
   5. Establish: (1) guidelines for evaluating training courses for credit towards CLP
      achievement requests, and (2) controls to ensure CORs complete FAS-required
      training courses.
   6. Determine if restructuring the Central Office bureau would improve transparency
      and management of the FAS COR workforce.

Management Comments

The Commissioner of the Federal Acquisition Service acknowledged receipt of the draft
report and plans to implement ways to strengthen the FAS COR workforce.
Management’s written comments to the draft report are included in their entirety as
Appendix B.




A130007/Q/A/P14006                     7
Conclusion
We identified several instances in which FAS CORs were not certified, designated, or
developed in accordance with the Federal Acquisition Certification for Contracting
Officer’s Representatives program requirements and best practices.          The COR
certification program was developed to strengthen the COR workforce and ensure that
CORs obtain general training, experience, and development requirements that reflect
the various types of contracts they manage. To ensure that CORs are in the best
position to help GSA achieve best value, FAS should strive to fully implement all
elements of the COR certification program guidance. In addition, FAS should develop a
consistent approach that focuses on essential core competencies and training programs
that promote growth.

We also found inadequate and unreliable COR data maintained by FAS and within
FAITAS. To effectively manage the COR workforce and mitigate risk, FAS should
develop controls and procedures to ensure COR data is accurate, reliable, and relevant.




A130007/Q/A/P14006                     8
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the General Services Administration Office of Inspector
General Fiscal Year 2013 Audit Plan.

Scope

The audit focused on data contained in FAITAS, as it is the official system of record for
all GSA CORs. We reviewed all FAS COR certification requests approved in FAITAS
between April 15 and July 15, 2013. Additionally, we analyzed a judgmental sample of
COR continuous learning point (CLP) achievement requests approved in the 15-month
period prior to September 19, 2013. Our audit testing included all 11 GSA regions and
five FAS portfolios. 10

Methodology

To accomplish our objectives, we:

     •   Reviewed the Office of Federal Procurement Policy’s Federal Acquisition
         Certification for Contracting Officer’s Representatives;
     •   Reviewed Federal Acquisition Regulation, FAS policies, and Office of
         Governmentwide Policy guidance regarding CORs and acquisition workforce
         training requirements;
     •   Examined Federal Acquisition Institute guidance addressing COR competencies
         and CLP requirements;
     •   Obtained access to FAITAS and queried reports to identify all FAS CORs
         registered in the system;
     •   Examined FAITAS reports, internal FAS COR rosters, and workload reports to
         obtain a universe of approximately 450 FAS CORs;
     •   Compared FAITAS reports to internal FAS rosters and workload reports to
         identify CORs not registered in FAITAS and CORs not accounted for by FAS;
     •   Reviewed COR certification requests and a judgmental sample of CLP
         achievement requests for compliance with the COR certification program and
         FAS guidance; and
     •   Interviewed FAS employees from regional offices and central office portfolios,
         including but not limited to bureau managers and regional management officials,
         to gain an understanding of how CORs are certified, designated, and managed.

We conducted the audit between April 2013 and November 2013 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
10
  FAS portfolios reviewed include: Acquisition Management, Assisted Acquisition Services, Travel, Motor
Vehicle & Card Services, Integrated Technology Services, and General Supplies & Services.


A130007/Q/A/P14006                           A-1
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Internal Controls

The scope of our work was limited to addressing the objectives of this audit. Thus, our
assessment and evaluation of internal controls was restricted to those issues identified
in the Results section of this report.

Report Qualification

Our audit results are limited to the information contained in FAITAS and/or FAS-
provided data. Therefore, if a COR was not registered in the system and not identified
by FAS internal data, we were unable to include them in our audit. We identified
discrepancies between the two data sources and brought them to FAS’s attention for
immediate correction. Ultimately, we were unable to verify the completeness of the FAS
COR universe.




A130007/Q/A/P14006                    A-2
Appendix B – Management Comments


MEMORANDUM FOR Barbara E. Bouldin (JA-A), Program Director,
Acquisition Programs Audit Office

FROM: signed, THOMAS SHARPE, JR., Commissioner, Federal Acquisition Service
(Q), dated 19, September 2014.

SUBJECT: Draft Audit Report - A 130007, Opportunities Exist to
Strengthen the FAS' COR Workforce

Thank you for the opportunity to provide additional input to Draft Audit Report A13007.
The Federal Acquisition Service does not have any further comments beyond those
provided on June 23, 2014, to Michelle Westrup, Lead Auditor - In- Charge. FAS looks
forward to receiving the final audit report and to begin implementing ways to strengthen
the FAS COR Workforce.
If you have any questions, please contact Lisa Grant, Deputy Assistant Commissioner,
QV at 703-605-3589.




A130007/Q/A/P14006                     B-1
Appendix C – Report Distribution
Commissioner, Federal Acquisition Service (Q)

Deputy Commissioner, Federal Acquisition Service (Q1)

Chief of Staff, Federal Acquisition Service (Q0A)

Controller, Federal Acquisition Service (BF)

Assistant Commissioner, Office of Acquisition Management (QV)

Branch Chief, GAO/IG Audit Response Branch (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations Staff (JAO)




A130007/Q/A/P14006                     C-1
